                                  Reference
                          OIG Document Control #01-06




    REINVENTION PROPOSALS
       REINVENTION 2001

           MAY 25, 2001




OFFICE OF INSPECTOR GENERAL
RAILROAD RETIREMENT BOARD
The Office ofInspector General (OIG) has issued a series of Reinvention Proposals related to
the Railroad Retirement Board (RRB) over the past six years. These proposals and the
specific recommendations contained in them were presented to foster strategic decision-
making in light of changing demographic and environmental conditions. The OIG proposals
focused on major initiatives to encourage significant changes in the way the agency conducts
its operations rather than rely on the same methodology that has been employed over the past
sixty years.

Initially, the OIG recommended that the Board Members of the agency concentrate their
efforts on the organizational structure and the utilization of the agency's Field Service staff.
Later proposals included recommendations related to the primary mission of the agency
associated with tier I benefits and to a change in the basic structure of the agency.

The OIG has reassessed the previous recommendations in light of the current environment to
determine if any progress has been made by the RRB to implement those recommendations.
The Board Members have made several attempts at revising the organizational structure of
the agency but remain overly involved in the daily administration of RRB programs.
Virtually no changes have occurred in the past six years.

Recommendations were also made to substantially reduce the number offield offices
maintained by the agency and to expand the use of technology to serve as the primary source
of contact with workers, annuitants and beneficiaries. Although the number of field offices
has been reduced by one-third, the RRB employs almost the same number of employees in its
field service today as it did six years ago.

Projected changes in the number of railroad workers covered by the Railroad Retirement Act
and the decline in the number of annuitants and beneficiaries require a reassessment of the
role of the RRB and the way in which it operates. The decline in the total nUmber of
participants over the next twenty-five years makes it increasingly more difficult for the
agency to become administratively efficient. The declining customer base dictates a smaller
organization that is focused on the particular needs of its constituency. The OIG continues to
recommend a significant change in the basic entity structure and the role of the Board
Members.
The Office of Inspector General (DIG) made several recommendations concerning the basic
organizational structure ofthe Railroad Retirement Board (RRB). The initial Reinvention
Proposals recommended the adoption of a simplified structure organized by functional
specialty.

The lack of an effective organizational structure has been a contributing factor to the overall
control environment being cited as a material weakness in internal control. Arthur Andersen
LLP, independent public accountants, initially reported on the material weakness at the
conclusion of their audit for the 1993 fiscal year. They continued to report the control
environment as a material weakness in subsequent audits through the end of fiscal year 1995.
KPMG Peat Marwick LLP also cited the control environment as a material weakness in
internal control during their audit for the 1996 fiscal year. The DIG reported similar findings
in subsequent audits through fiscal year 2000.

The impact of the organizational structure on the control environment has been the inability
to resolve significant issues on a timely basis, a focus on individual unit objectives and
excessive attention to routine operational matters by the Board Members. Several attempts
have been made to revise the organization, but most have been cosmetic changes that
perpetuate the focus on parochial interests.

Continued emphasis on organizational issues is being placed on all government agencies.
The General Accounting Office (GAD) recently issued a report on major management
challenges from a government-wide perspective. The GAD report emphasizes that several of
the main actions required to improving government performance are centered on
performance management, human capital or people management and organizational
approaches to a changing environment. GAD has also issued an exposure draft for evaluating
the overall control environment. The exposure draft recognizes that the organizational
structure is a major element in achieving control environment effectiveness.

The Administration's proposed 10-Year Budget Plan includes a provision for reducing the
number of managerial layers in government. The budget proposal suggests that the Federal
government must change drastically to become "citizen-centric" by enabling individuals to
access information and conduct business with the government by using the internet. It also
requires that agencies devise methods of using technology to complete more of their business
transactions. The Office of Management and Budget has mandated, in a recent bulletin, that
an initial assessment of the RRB's workforce must be submitted by the end of June. This will
serve as an initial step in meeting the budget objectives. In its present mode of operating, the
RRB may be precluded from developing required performance plan goals for fiscal year
2002 that respond to these and other reforms outlined by the Administration.

The RRB has recently appointed a Senior Executive Officer (SED) who heads the Executive
Committee ofthe agency. The SED is also the RRB General Counsel and, in effect, must
operate as SED in addition to his other responsibilities. He only has authority over the
agency managers in his duties as chairman of the Executive Committee. The agency
managers still report to the three-member Board in their normal course of duties.
The creation of the Executive Committee adds an unnecessary level of delay in the decision-
making process. The OIG continues to believe that the three-member Board should not be
involved in managing the day to day operations of the agency. The OIG has previously
recommended that the Board become an advisory panel representing their respective
constituencies through recommendations to an independent Chief Executive Officer (CEO),
who will be responsible for the operations of the agency. This form of organizational
structure will enable the RRB to streamline the decision-making process, provide for greater
communication among offices and bureaus, focus on global decision-making and eliminate
the stand-alone attitude of independent fiefdoms.

The following charts show the agency structure in 1996 and in 2001 along with the OIG
proposed structure. Only minimal changes have been made as a result of several
reorganization efforts by the agency.




                           Office of            The Board
                          Inspector
                           General
                                                        I

                                                    I
                    Office of                Office of                    Office of
                   Programs               General Counsel              Ad ministration


       Operations          Assessment             Office of    Secretary to          Bureau of
                      -    and Training    r-    Legislative    the Board     -     Information
                                                   Affairs                            Systems

       Resource                  Policy          Bureau of     Bureau of            Bureau of
      Management      -           and              Law           Fiscal       -      Quality
        Center                  Systems                        Operations           Assurance

          Field                                  Bureau of      Bureau of           Bureau of
         Service      -                    L-
                                                  Hearings     Supply and     -r-   Personnel
                                                and Appeals     Services

                                                                Bureau of            Office of
                                                               the Actuary    -~      Equal
                                                                                    Opportunity

                                                                Office of
                                                                 Public       -
                                                                 Affairs
                                 ,..------------
                                 !                          I
                           Office of                    The Board
                          Inspector
                                                                                      I               I
                           General                                      Chief Actuary              Office of
                                                                        Bureau of The               Equal
                                                            I              Actuary                Opportunity
                                                     Executive
                                                    Committee
                                                            I
         I                   I                              I                     I                   I
       Chief           Office of                        Office of             Office of           Chief
     Financial      Ad m in istration                   General              Programs         Information
      Officer                                           Counsel                                  Officer


       Bureau of           Bureau of                       Office of           Operations            Bureau of
L-
         Fiscal      I-
                            Human                         Legislative   -                    L-
                                                                                                    Information
       Operations          Resources                        Affairs                                   Services

                            Bureau of                     Bureau of             Policy and
                     I-
                           Supply and                    Hearings and   -        Systems
                            Services                       Appeals

                             Office of                     Secretary       Resource
                     L-
                              Public               L-
                                                            to the      - Management
                              Affairs                       Board           Center

                                                                              Assessment
                                                                              and Training



                                                                                  Field
                                                                        L-
                                                                                 Service
                                            Advisory
                                             Panel
                  ;_ .................. _ ............ ~

              Office of                        Chief
             Inspector                       Executive
              General
                                                      I
    I             I                                   I       I             I

 Office of    Finandal                     Information     Legal     Administrative
Programs     Operations                     Systems        Affairs     Services
In 1996, the 0IG recommended a complete revamping ofthe Field Service with a reduction
in the number of offices from 86 to 10 and a reduction of255 FTEs. The 0IG concluded that
the changing demographics within the railroad industry, along with the availability of
automated processing technology, negated the need for a wide network of field offices in
which the primary method of service delivery was individual interviews. Since the time of
the initial recommendation, dramatic technological advances have made this proposal even
easier to accomplish.

The RRB currently maintains a Field Service with 3 regional and 53 field offices and 379
authorized positions. In 1996, the Field Service had 383 people assigned with many of the
432 authorized positions having been vacant for years. Any reduction was accomplished by
eliminating vacant authorized positions with no real effect on the size of the Field Service.
The actual reduction is only four employees. The current RRB Strategic Plan assumes that
the primary service delivery will be through a structure of field offices that will remain
relatively stable. This indicates that the RRB is not considering any reduction in the size of
the Field Service.

At the time the initial recommendation was proposed, the estimated annual savings in
employment costs were estimated as approximately $10.6 million. A similar staff reduction
occurring at this time would result in savings approaching $14 million. The need for a
reduction in the number of offices operated by the Field Service is reinforced by the General
Services Administration's decision to charge market based rents. The agency has expressed
concern that increases in rent could put enough of a strain on the budget as to require a
reduction in the work force. A reduction in the number of field offices operated and the
number of field service employees would eliminate this budgetary dilemma.

The development of a centralized service unit at the existing headquarters building, as
proposed by the 01G, would also help this situation. The 0IG remains convinced that the
effective application of technology to direct customer service situations should replace the
more costly person to person service delivery method. This approach is consistent with
efforts by other agencies to reduce field service facilities and consistent with the
Administration's goals to expand information technology applications to deliver information
and services.

The initial proposal made by the 0IG was predicated on the employee and beneficiary
population covered by the Railroad Retirement Act (RRA). At that time, this total direct
customer base was 1.2 million individuals. The customer population has now declined to
approximately 905,000. The RRB projects this population will continue to decline
substantially in the future.
The following chart illustrates how the customer base of the RRB is concentrated, indicating
that the number of field offices could be reduced to five or seven offices.




           Distribution of Railroad Employees and Beneficiaries



                  PENNSYLVANIA


                  ILLINOIS                 ILLINOIS


                  CALIFORNIA               TEXAS                        PENNSYLVANIA

                  TEXAS                    CAliFORNIA                   ILLINOIS

                  FLORIDA                  NEW YORK                     CAliFORNIA


                  omo                      PENNSYLVANIA                TEXAS


                  NEW YORK                 NEBRASKA                    NEW YORK

                                                               I



             States with more than     States with more than       States with more than
              25,000 Beneficiaries        10,000 Railroad          25,000 Beneficiaries &
                                             Employees                 10,000 Railroad
                                                                          Employees
In the report entitled Reinvention Proposals Phase III, the OIG recommended the merger of
the tier I program with the Social Security Administration (SSA). Nothing has changed in the
past four and one-half years to suggest that this recommendation is any less relevant today.




The previous report noted that, in 1995, revenues related to the provision of Social Security
benefits or the equivalent represented in excess of 62% of total RRB revenues. Each of the
two prior fiscal years also indicated that these revenues were in excess of 60%. Comparable
data for fiscal year 2000 indicates that 59% of RRB revenues related to Social Security-type
activity.

The revenue SSA provides to the RRB comes in the form of the financial interchange
transaction. The intent of the financial interchange is to place the social security trust funds in
the same position they would have been if SSA had always covered railroad workers. If the
amount of benefits and expenses SSA would have paid exceeds the tier I tax collected, a
transfer is made to the RRB. The estimate of the financial interchange for fiscal year 2000
was $ 2.9 billion, the first time it dropped below $ 3 billion in the past ten years. Settlement
of the financial interchange has caused accounting problems in the past and requires
excessive use of resources.

A review of benefit payment activity indicates an even greater relationship to Social Security.
In fiscal year 2000, the RRB paid a total of$9.5 billion in benefits from all programs. Of that
total, $5.1 billion were tier I benefits. The RRB paid an additional $1.1 billion on behalf of
Social Security for which the agency was directly reimbursed. Social Security related
benefits, therefore, represent over 65% of the total RRB benefit payments.




In the previous proposal, the OIG cited several problems with the dual administrative roles of
the RRB and the SSA. Specific coordination of benefit entitlements exists if an individual
established entitlement to both Social Security and RRA benefits during his/her working
career. Similar coordination problems can exist for the benefits payable to the spouse of an
annuitant covered by the RRA. Historically, coordination problems with Social Security
caused a significant amount of benefit overpayments. Ultimately, the benefits will be offset
but, in the interim, overpayments may result and produce additional administrative costs.
The submission of separate employer tax returns, the reporting and tracking of earnings
history and the need to support separate but nearly identical calculation and payment systems
are a few examples of the redundancy that exists because tier I remains separate from Social
Security. This becomes more obvious considering that the tier I calculation is more complex
than the tier II program. In addition, each agency incurs expenses to facilitate data exchanges
with each other.

The current and projected demographic trends published by the RRB suggest that a transfer
of the tier I portion of the program to SSA is highly desirable. Currently, 235,000 active
employees are covered by the RRA. There are 670,000 annuitants receiving RRA benefit
payments. By contrast, Social Security indicates that it pays benefits to more than 38 million
individuals each month. Social Security projects that approximately 154 million people will
contribute to the SSA program during 2001. The most recent actuarial report issued by the
RRB suggests a continuous decline in participants through 2025. Under its moderate
assumption, the RRB projects that the average number of covered workers will decline to
140,000 and the number of annuitants will decline to 420,800 in 2025.

The Railroad Retirement Board Strategic Plan 2000-2005 recognizes that activities should be
considered for outsourcing. Strategic Objective II-E states: "Use outside sources and
partnerships, when appropriate, to accomplish our mission." The objective states" Another
objective with respect to this strategic goal is to use outside sources and partnerships with
other agencies and organizations, when appropriate (i.e., when significant savings can be
expected and quality of services will not suffer.)"



The OIG continues to believe that the longer-term issue for the RRB is to concentrate its
efforts on the tier II benefits that more closely parallel a multi-employer industry pension
plan. The previous recommendation for the transfer of tier I responsibility to Social Security
is as relevant today as it was in 1996.

The declining population of annuitants, beneficiaries and active workers requires drastic
changes in service delivery techniques and methods in order to promote economy and
efficiency. The external environment is also changing dramatically and requires an
abandonment of the conventional thinking that has characterized the RRB since its inception.
This is evidenced by proposed legislation to dissolve the investment responsibilities of the
RRB and the Administration's proposal to change Social Security to incorporate features
comparable to individual retirement accounts.

The Reinvention Proposals Phase III stated several reasons for the RRB to continue
administering the Medicare program. The OIG continues to believe that the Medicare
program, applicable to railroad retirees, should be administered by the RRB while the tier I
program is included under the RRA. The report indicated that the Railroad Unemployment
and Insurance Act (RUIA) programs should also remain under the administrative control of
the RRB. The OIG believes that, because the RUIA programs represent a relatively minor
portion of the total activity ofthe RRB's operations, there is no significant savings or
efficiency to be gained by changing the current administrative arrangement.
The GIG issued its Reinvention Proposal Phase IV in September 1996. The proposal
indicated that the RRB should explore the feasibility of becoming a government corporation
and revise its organizational structure to operate in a manner that promotes efficiency. The
recommendation was made to encourage the Board Members to pursue the formation of an
entity structure that would be compatible with the need to administer those programs outside
the scope of the current tier I program. It is important to recognize that this recommendation
is made in conjunction with the proposal to transfer the tier I program to Social Security.

The GIG remains convinced that the RRB, as a small government agency, is constrained by
budgetary and administrative regulations. The future of the RRB is dependent upon
providing services in a manner that mirrors the most efficient of large multi-employer
pension and benefit providers. The evolution to becoming this type of organization requires
an entity structure significantly different than the current one.




Railroad management and labor formed a coalition to develop major changes to the
provisions of the RRA. An agreement between the parties was reached after several years of
negotiations and a measure has recently been introduced in Congress which will alter the
benefit structure, determine the future level of tier II tax rates and remove the RRB' s
investment authority. A similar measure was introduced in the previous session of Congress,
passed by the House but failed to progress in the Senate. The current bill is essentially the
same as the previous measure.

The provisions of the proposed legislation that deal with the investment of trust fund assets
are particularly relevant to this discussion. The coalition that proposed the legislation and the
sponsors of the bill are supporting the establishment of an investment trust, independent of
the Federal government. The trust will be responsible for the investment of the trust fund
balances for both the tier I and tier II benefit programs. The total market value of the trust
funds at the end of fiscal 2000 was $19.4 billion, of which $2.1 billion was held by the Social
Security Equivalent Benefit (SSEB) Fund, which funds tier I benefits.

The proposal is very clear in defining the investment trust as being independent of the
Federal government and subjects the trustees to fiduciary standards of prudent investment
that apply to other industry pension plans. The only investment restriction applies to the
funds in the SSEB Fund, which can only be invested in government securities or transferred
back to the RRB for purposes of paying benefits or administrative expenses.
The proposed legislation makes clear the distinction between the investing of tier I and tier II
funds as being the difference between investments of government and private plan assets.
Once the investments of the RRB are transferred to the investment trust, the RRB will
become an agency with a $3 billion balance sheet. The RRB at that point will process $9
billion in benefit payments of which $5 billion relates to the tier I program over which it has
essentially no control.




The legislative proposal suggests major changes to the RRA but does not go far enough. The
basic structure of the RRB and its program requirements should also be considered.

The original proposal to change the organizational charter of the RRB is unchanged. The
Board should become proactive in responding to the changing demographic and legislative
environment and respond accordingly. As previously recommended, the RRB should become
a government corporation. The three-Member Board should be an advisory and strategy
oriented panel that removes itself from daily administrative tasks that can be handled by
experienced professionals within the organization.

The Board could also accept the responsibility for the annual allocation of the investment
trust's income to pay for administrative expenses of the RRB within a range determined to be
acceptable by the Administration. The administrative budgeting process could be reviewed
every four or five years to determine if the funding range should be adjusted or on an interim
basis to respond to any special funding requests.




•   Redesign the organizational structure of the RRB to recognize functional specialties and
    expertise and streamline the operations by eliminating unnecessary layers of
    management.

•   Significantly reduce the size and scope of the field service staff by utilizing available
    technology to provide services to employees, annuitants and beneficiaries of the
    programs administered by the RRB.




•   Request a change in the structure of the RRB to become a government corporation under
    the direction of a Chief Executive Officer, independent of the Board in administering
    RRB programs. The Board should become an advisory panel removed from routine tasks
    and concentrate on long-term issues of strategic importance.
The OIG proposals represent a significant departure from the current and past practices ofthe
RRB. The recommendations are intended to respond to changes in the environment and
concentrate agency efforts on the long-term strategic impact ofthese changes.

The demographic projections for the customer base of the RRB shows a continuing decline in
the number of employees, annuitants and beneficiaries. In 1995 this direct customer base was
approximately 1.2 million people. The customer population has dropped substantially since
then and will decline to approximately 560,000 in less than 25 years.

There is continuing pressure to reduce the size of government and to eliminate redundant
programs. The Administration has indicated that government agencies must reduce
managerial layers and utilize technology to increase productivity.

Legislation has been introduced in Congress that would make substantial changes to the
RRA. These changes, which have the support of both railroad labor and management, would
amend benefit provisions, change the tier II tax rates and transfer the investment authority of
the RRB to a newly created investment trust. In addition, the Administration has authorized a
commission to study changes to the social security system that would include the potential
for diverting a portion of the tax collected to an individual account arrangement.

Major environmental changes require significant responses rather than minor adjustments to
the status quo. The OIG strongly believes that the recommendations previously made have
become more relevant with the passage of time and that the Board should initiate efforts
toward implementing them.
This document was scanned for electronic
      distribution on April 20, 2009.

     Inquiries should be directed to:

       Office of Inspector General
     U.S. Railroad Retirement Board
            844 N. Rush Street
          Chicago, Illinois 60611

        Telephone: 312-751-4690
